<html>
<title> - ENERGY AND WATER DEVELOPMENT APPROPRIATIONS FOR FISCAL YEAR 2009</title>
<body><pre>[Senate Hearing 110-]
[From the U.S. Government Publishing Office]



 
    ENERGY AND WATER DEVELOPMENT APPROPRIATIONS FOR FISCAL YEAR 2009

                              ----------                              


                        WEDNESDAY, APRIL 9, 2008

                                       U.S. Senate,
           Subcommittee of the Committee on Appropriations,
                                                    Washington, DC.
    The subcommittee met at 9:33 a.m., in room SD-192, Dirksen 
Senate Office Building, Hon. Byron L. Dorgan (chairman) 
presiding.
    Present: Senators Dorgan, Murray, Domenici, Bennett, and 
Craig.

                          DEPARTMENT OF ENERGY

STATEMENT OF HON. JAMES A. RISPOLI, ASSISTANT SECRETARY 
            FOR ENVIRONMENTAL MANAGEMENT

              OPENING STATEMENT OF SENATOR BYRON L. DORGAN

    Senator Dorgan. Calling the hearing to order. This is the 
Senate Appropriations Subcommittee on Energy and Water 
Development. The hearing today is an oversight hearing on the 
fiscal year 2009 budget request for the Office of Environmental 
Management and the Office of Civilian Radioactive Waste 
Management.
    We're here to take testimony from the two program offices 
that I just indicated. One is the Government's clean up of the 
cold war legacy and the other is the ultimate disposal of 
nuclear waste. This year's budget request of $5.5 billion for 
the Environmental Management Program represents the fourth 
straight year that President Bush has reduced the clean up 
budget and the strain is showing.
    The fiscal year 2009 request is down $167 million from 
fiscal year 2008. And that's down $1.75 billion from 2005. It's 
no coincidence that at the same time the White House has cut 
this budget, the U.S. Government's third largest liability, the 
environmental clean up liability has grown by 25 percent to 
$342 billion.
    Mr. Rispoli has indicated that this program will not and 
cannot meet the legally mandated clean up milestones because 
there's not enough money. We've learned that EM will miss 23 
legal milestones and lay off, we believe, upwards of 600 people 
solely because of a lack of funding. In his statement before 
the House Energy and Water Subcommittee last month, Mr. Rispoli 
estimated that the EM program may need $900 million more to 
meet all of its requirements in 2009.
    In spite of the shortfall in this particular area, the 
Department of Energy has submitted a budget to the Congress 
that is $1.1 billion higher than in 2008. The Office of Science 
has proposed an increase of $750 million. National Nuclear 
Security Administration increase of almost $300 million. Even 
Mr. Sproat's office has an increase of over $100 million in 
2009. I might also say that with respect to water funding, the 
Bureau of Reclamation and the Corps of Engineers, the President 
requests a $1 billion cut in funding in this year.
    The legal requirement of mandating the clean up is 
something that we ought not take lightly. It seems to me, with 
its budget recommendations, the Department shrugs its shoulders 
and wrings its hands and talks about hard decisions. But 
frankly, I don't think it is the right decision to decide that 
we're not going to meet our mandated requirements on clean up.
    The legal milestones that are mentioned in the 2009 budget 
for Mr. Rispoli, are milestones that were negotiated long ago. 
And they are subject to some technical problems that make some 
of them unachievable. But that's true for some. It is not true 
for all the requirements. The fact is the administration is not 
asking for the funding to meet 23 milestones that are perfectly 
achievable in 2009, milestones for which we have made a 
commitment.
    I wanted to point out that with this clean up budget work 
on contaminated soil and ground water around the EM complex 
will not be dealt with for decades to come. Meanwhile the EM 
will literally spend millions of dollars propping up old 
buildings hoping that they will stay up long enough to be torn 
down safely. That seems Byzantine to me.
    If anyone thinks that the under funding of the EM is the 
right decision I would point out that the EM is becoming the 
choke point on modernizing both the National Nuclear Security 
Administration's and the Office of Science's complexes. Both 
organizations have announced, for example, ambitious plans to 
bring about technological capability into the 21st century at 
Oak Ridge, Tennessee. Yet both programs are being stymied 
because Environmental Management doesn't have in its base line 
the $5 billion needed to tear down and clean up Oak Ridge by 
2015.
    Mr. Rispoli, I want to recognize your hard work over the 
last 3 years in trying to get the cost and scope and schedule 
of 80 clean up projects under control. I think that's been good 
work. And I want to recognize that.
    But I must say that I'm very disappointed that that work 
has not been rewarded by the Office of Management and Budget 
and the White House. In the budget that you and I know, in the 
Appropriations request, you and I know, is far short of what 
you need to do your job. For all of your effort, the 
administration and the Office of Management and Budget have 
sent us recommendations to cut your budget by $1.75 billion 
over the last 4 years even as the responsibilities and the 
commitments have grown.
    Today we'll hear from Mr. Sproat on the status and the 
progress of the Yucca Mountain disposal site. His request for 
$495 billion is $108 million above the 2008 appropriation. Mr. 
Sproat and his organization have a lot of work ahead of them. 
They have a legal mandate to attempt to develop a disposal site 
for both civilian reactor fuel and defense nuclear waste.
    Mr. Sproat, I know you recognize your program has a lot of 
challenges and some problems to overcome before it can claim 
victory. My understanding is that the first is getting your 
license application to the Nuclear Regulatory Commission. I 
understand you intend to submit that in just a few months, 
perhaps no later than June 30, of this year. But that will, I'm 
sure, be scrutinized and challenged by many who hold the 
position that Yucca Mountain is not the right solution for our 
Nation's nuclear waste program.
    I want to thank both of you for coming today. These are 
complicated programs, and important programs that Congress has 
to think through carefully. The White House and the Budget 
Office have given us their evaluation, and now it is our turn 
to evaluate. We appreciate the work that both of you do, and we 
appreciate both of you being here today. Senator Domenici.

             OPENING STATEMENT OF SENATOR PETE V. DOMENICI

    Senator Domenici. Thank you very much, Mr. Chairman. And 
thanks to our two witnesses.
    Mr. Rispoli, you have the difficult job of cleaning up the 
contaminated sites and disposing the nuclear waste throughout 
the complex. This budget, however, is not up to the task. It 
simply provides insufficient resources to do the job.
    In fact this budget request is one of the lowest I've seen 
during my tenure as chairman or ranking member. More than a 
decade is the amount of time that I have spent watching these 
budgets. And never have I seen one that misses the mark so 
much. Well below 2005-2006 when the Congress provided an excess 
of $7 billion for environmental clean up efforts.
    And when those budgets were in that ballpark, your 
Department was doing excellent work at re-prioritizing and 
doing some exciting things. Included in that was the closure of 
Rocky Flats, a rather important and outstanding achievement. 
But you're not going to have outstanding achievements with 
budgets as small as this one.
    As a result of these low funding levels it appears that the 
Department is resorting to creativity to cover its shortfalls. 
I have begun to hear about ``acceleration'' strategy, similar 
to those of your predecessors. You promised immense savings by 
accelerating clean ups in order to dramatically shorten the 
overall clean up schedule.
    I understand that things like this must be tried. And I 
welcome an opportunity to hear from you how you intend to do 
that. I'm still waiting to see the savings on the closure of 
Rocky Flats materialize in investments in plutonium missions at 
Los Alamos.
    While I don't believe there is any substitute for providing 
adequate funding for major clean up sites. I can't blame you 
for trying to find ways to prioritize clean up based on risk. 
If we would have done that from the beginning and stuck with 
it, we'd be much further along than we are now. But it's very 
difficult to change horses in midstream, especially not to have 
the money for ordered clean ups, court ordered agreements.
    I'll just take a minute on New Mexico because you will hear 
much about this unless we're able to find some money. Your 
budget again fails to provide adequate funding to my State for 
milestones negotiated between the DOE and State of New Mexico. 
You're aware of that.
    Each year the gap grows. And I have to do everything within 
my power, seek the help of the chairman to try to find the 
shortfall. This year I'm not confident that we will be able to 
find $100 million needed to clean up, in compliance with the 
agreement you negotiated with New Mexico. I hope you can tell 
me something to the contrary on the witness stand.
    Now let's talk a minute about nuclear waste with you. 
You've done a great job. You're a very enthusiastic leader and 
that's what we needed. Sandia took a very big job when they 
agreed to use their personnel and their expertise to try and 
get you a document that could be filed for a license.
    With regard to Yucca Mountain. Everybody knows that I 
strongly favor nuclear power and expanding its use as an 
emissions free source of load generation. However, I believe 
the current strategy limiting our policy option to a permanent 
repository for the disposal of spent fuel is deeply flawed. I 
believe this path will prove to be the highest cost solution. 
And it fails to take advantage of recycling, which would 
maximize our energy resources and minimize our waste 
requirements.
    Nobody in the world is putting spent fuel rods underground 
as a way of getting rid of waste. Nobody is even planning to 
take spent fuel rods and putting them in a repository for any 
long period of time as a means of disposing of waste. Why? 
Because spent fuel rods are loaded with energy.
    Only 3 percent of the energy has been used and 97 remains. 
And that's foolhardy to build a plan as we have if it would 
have even worked, if we would have gotten it through the 
Congress. To put spent fuel rods away has almost reached a 
point where it's unfathomable.
    I would like to say to the chairman and for this record 
that we have to pursue a comprehensive policy on waste. And I 
will be introducing legislation, Mr. Chairman. I will show it 
to you and share it with you, which will provide our country 
with an alternative pathway to address commercial spent fuel 
and not letting our policy to Yucca Mountain, Yucca only 
approach.
    My legislation will authorize a portion of the nuclear 
waste fund to support the development of spent fuel storage and 
reprocessing facilities. Some of these funds would be used by 
DOE to renegotiate spent fuel storage agreements with local 
communities to store and recycle spent fuel to utilize untapped 
energy and to minimize the waste volumes. I will also propose 
the Government be a full partner and sharing in the cost of 
developing the model licenses for commercial reprocessing 
facilities. Such model approaches would apply to existing as 
well as any more advanced recycling approaches. Should these 
facilities become available, DOE should be authorized to enter 
into long-term service contracts with private entities like to 
construct and operate reprocessing facilities.
    Mr. Sproat, I know that you have worked hard to manage 
Yucca. And the people at Los Alamos who work with you deserve 
every credit for taking something that was more gone than 
breathing life into it. The question now is, is it adequate for 
our country, or not. Should we proceed with it, or not?
    And I have just stated as best I could in a minute and a 
half what I think we should do. And obviously I will be ready 
with a full bill soon. Thank you very much, Mr. Chairman.
    Senator Dorgan. Senator Bennett?

                 STATEMENT OF SENATOR ROBERT F. BENNETT

    Senator Bennett. Thank you, Mr. Chairman. Assistant 
Secretary Rispoli and Director Sproat, I appreciate your taking 
the time to come before the committee. I come in listening to 
Senator Domenici talk about clean up.
    It will come as no surprise to you that I want to talk 
about clean up. Once again the project in Utah to renew uranium 
meltings from Moab and I know your staff is doing the best you 
can to keep us up to date on this. I simply want to make a few 
observations on this so that no one thinks that I've forgotten 
about it or that we've lost track of it.
    I'm pleased that you recently amended the record of 
decision to include trucking as a way of moving this material. 
It creates some problems in the State of Utah. But we will 
resolve those problems, primarily the need to have a bigger 
road.
    We will respond to that. It gives us additional flexibility 
than the pure railroad solution of how to move the tailings. 
And I'm glad to see us go down that road.
    Now as you remember I strongly objected to the Department's 
timeline of 2028 as the date for completing this project. And 
with the support of this subcommittee and the Defense 
subcommittee, we directed the Department to finish the project 
by 2019. I simply want to make it clear, again, that this is 
not a wish. This is a Congressional mandate and the Congress 
has spoken. And 2019 is the date.
    Now as part of the mandate the Appropriations Committee 
gave you 180 days from the date the President signed the bill 
to prepare a report on the funding requirements you will need 
to meet the date of 2019. And I assume that you're anxiously 
working on that report. And I look forward to receiving it 
sometime this summer when it's finished.
    Now this project started out with a cost of $80 million 
when I first came to the Senate and it first came to my 
attention. The current price tag attached to it is $800 
million. So it's gone up. It's a neat symmetry. It's gone up 10 
times in 10 years.
    Now I hope we don't have that same kind of acceleration. 
But I do think we probably will see some additional 
acceleration and we need to know in advance as much as we can 
know. We need to have accurate figures as quickly as we can get 
them so that we can appropriate accordingly.
    So, I look forward to working with you on the project. And 
want to be as helpful as I can. I appreciate the efforts that 
you have put into that. And with that parochial opening 
statement, Mr. Chairman, I have nothing further.
    Senator Dorgan. Senator Bennett, thank you very much. We 
will hear now from the Honorable James Rispoli. Mr. Rispoli, 
you may proceed. Your entire statements for both of you will be 
part of the permanent record. And we would ask that you 
summarize.

                   STATEMENT OF HON. JAMES A. RISPOLI

    Mr. Rispoli. Thank you, Mr. Chairman. Good morning, Mr. 
Chairman, Senator Domenici, Senator Bennett, members of the 
subcommittee. I also understand that a group of students from 
Jamestown in the State of North Dakota is here with us today. 
And I just thought I would mention that and welcome them. This 
is a great opportunity, I think, for these students to see a 
part of the appropriations process that's absolutely vital.
    Senator Bennett. Could you speak up a little, Mr. Rispoli?
    Mr. Rispoli. I think it's important to----
    Senator Bennett. That's better.
    Mr. Rispoli [continuing]. For this group of students from 
Jamestown, North Dakota to be here today because they get to 
see a part of the appropriations process that is so vital to 
the way our Government operates. So I welcome the students from 
Jamestown.
    Senator Dorgan. Mr. Rispoli, I did not know that they were 
in the room. But let me ask those from Jamestown to stand up 
and wave at us.
    They are all experts on the issue of waste disposal, and 
environmental management. They must be, I think you're with the 
Close Up groups. So we welcome you here.
    I know I'm meeting with a Close Up group later today. So 
that must be the group. We welcome all of them here.
    Mr. Rispoli, thank you.
    Mr. Rispoli. Well I would be remiss then, Mr. Chairman, by 
not pointing out that our budget person, Cindy Rheaume here is 
also from the great State of North Dakota.
    Senator Dorgan. Well, Cindy, welcome. Would you like to 
testify for a while?
    Mr. Rispoli. So clearly the State of North Dakota is well 
represented in the room today. I'm pleased to be here and would 
like to note this year marks the 20th year since the EM program 
was first established. Clearly a lot has been accomplished and 
a lot more needs to be done.
    When I first appeared before this subcommittee 2 years ago, 
I pledged that safety would remain our first priority. I've 
stated that no milestone is ever worth an injury to our 
workforce. Today I'm pleased to report that worker injuries 
have been reduced by 50 percent during the past 3 years and 
that our injury rate is less than 10 percent of that in the 
commercial waste disposal and construction industries. I think 
that's very, very notable for the people that are doing the 
work for all of us and for our country.
    Also, after I was sworn into this position, I set about to 
refine all of our cost and schedule baselines which guide every 
project. During the past 18 months, all, that is all, EM 
projects, both line item and clean up have undergone 
independent audits to verify their costs and schedules as valid 
and reasonable. Today our project estimates and assumptions for 
the entire EM portfolio, I believe can be viewed with far 
greater confidence than ever before.
    At that time I also stated that our goal was for the cost 
and schedule performance of at least 90 percent of our projects 
to be on target or better than on target. In July 2005, 17 of 
our projects were not on cost or on schedule. That is only 51 
percent of all projects at that time were on target.
    Today our portfolio, which currently numbers more than 65 
projects, consistently meets that 90 percent goal. And we 
actually track this regularly. We are up near 100 percent on 
cost, on schedule with the entire portfolio, which I think is a 
notable accomplishment for all the people that work in this 
program.
    Turning now to our fiscal 2009 budget request, our request 
is for $5.53 billion. And it continues to be based on the 
principle of prioritizing risk reduction across the entire 
complex.
    Let me address an issue that I know has caused concern to 
several Members of Congress and that is that this request has 
broken with past understandings related to the Department's 
clean up budget strategy. I would like to quote part of 
testimony from my predecessor, Assistant Secretary Jessie 
Roberson before this subcommittee in 2003 and 2004. She 
testified that after a period of accelerated funding peaking in 
fiscal year 2005 and here I quote, ``we anticipate funding will 
then decline significantly to about $5 billion in 2008.'' 
Viewed from this perspective and with that quote in mind, our 
fiscal 2009 budget is about a half billion dollars more than 
what she projected 5 years ago.
    The administration recognizes that with the budget before 
you as you all have noted, some of the milestones contained in 
our clean up agreements are in jeopardy of being missed. It's 
important to note that other milestones are in jeopardy due to 
technical reasons regardless of funding. As a result we had to 
make very careful decisions regarding our priorities. The 
regulatory agreements that guide our work have been and remain 
important measures of progress. The Department's strategies 
continue to focus on clean up that will produce the greatest 
environmental and safety benefit and the largest amount of risk 
reduction.
    I would like to just take a minute to share. I believe you 
all have photographs before you, but just share a couple of 
those with you. The first photograph is actually from Senator 
Domenici's home State. It's the underground of the Waste 
Isolation Pilot Plant. And it's, I think, a very good photo of 
the remote-handled waste placement machine that places the 
remote-handled waste into the horizontal bore holes in the 
walls.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    The second photograph is the 300 Area of Hanford. And this 
photograph shows by the ``X's'' through the buildings in the 
photograph how many of the buildings have actually been taken 
down. It's an amazing accomplishment. A total of 140 structures 
have been safely removed just in this area alone.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    The third photograph is a photograph of the Energy 
Technology Engineering Center in California. And this is 
another example of a before and after shot that shows that more 
than 250 buildings have been taken down in that location.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    The fourth slide is before and after at Paducah, Kentucky 
that shows a huge metal waste pile. A blight on the entire area 
that has been totally removed. Enough metal equal to the 
displacement of a World War II battleship.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    And the last slide is of DOE contractors of Idaho removing 
transuranic waste under a structure, while the structure 
provides the safety so that this waste does not become airborne 
and then migrate off the site.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    Mr. Chairman, I'm proud of the progress our 34,000 
contractors and Federal employees have made in recent years. 
And the wise and secure foundation we have built for the 
future. This subcommittee has provided the critical guidance 
that has enabled us to accomplish the successes we've had to 
date.

                           PREPARED STATEMENT

    I look forward to working with you in my remaining time at 
the Department. And I thank you for supporting our efforts to 
reduce risk to our citizens, our communities and our Nation. 
Thank you and I'm happy to answer your questions.
    [The statement follows:]

              Prepared Statement of Hon. James A. Rispoli

    Good morning Mr. Chairman, Senator Domenici, and members of the 
subcommittee. I am pleased to be here today to answer your questions on 
the President's fiscal year 2009 budget request for the Department of 
Energy's Office of Environmental Management (EM). I want to thank the 
subcommittee for your support of the EM program.
    The year 2009 will mark 20 years since the EM program was first 
established just as the cold war was coming to an end. While the budget 
we are considering today is oriented toward the future, I think it is 
appropriate to begin today by considering how much this program has 
accomplished since its creation.
    At that time, nearly 50 years of nuclear weapons production and 
energy research had left a legacy of enormous amounts of waste and 
environmental contamination at more than 100 sites across the country. 
The extent of the risk to our citizens and communities was literally 
unknown, and certainly many of the processes and technologies to reduce 
that risk had not yet been invented.
    Since then, we have closed 86 of 108 sites nationwide. The national 
``footprint'' of the Department's nuclear complex and its accompanying 
risks has been drastically reduced, and eliminated altogether from many 
States. We have packaged and safely stored all of the Nation's excess 
plutonium inventory. We have pioneered new technologies that have 
allowed us to make progress retrieving millions of gallons of tank 
waste, and to safely dispose tens of thousands of cubic meters of 
transuranic waste. In fiscal year 2006 and fiscal year 2007 alone, we 
demolished approximately 500 buildings (nuclear, radioactive, and 
industrial) as part of our decontamination and decommissioning (D&D) 
projects. And finally, we have made great strides in protecting 
groundwater using innovative treatment systems.
    Today marks likely the final time that I will be testifying before 
you regarding our program's budget request. When I first assumed the 
position of Assistant Secretary for Environmental Management in August 
2005, I set out to institute a rigorous project management system, and, 
above all, to continue to emphasize safety and risk reduction. I sought 
to refine and independently verify our project baselines--the estimates 
of scope, schedule and cost that guide every project--to ensure that 
they are realistic and executable. I will discuss our successes in this 
area as well as our ongoing challenges.
    The fiscal year 2009 budget request is once again built on the 
principle of prioritizing risk reduction across the entire complex for 
which EM is responsible, supported by our four guiding tenets of 
safety, performance, cleanup and closure. The budget request totals 
$5.528 billion, a decrease of $167 million from the fiscal year 2008 
appropriation. With 90 percent of our budget addressing mission 
activities at our cleanup sites, more than half of fiscal year 2009 
funding will go towards our highest-risk activities of stabilizing tank 
waste, nuclear materials and spent nuclear fuel; another one-quarter of 
the budget will be devoted to cleaning up contaminated soil, 
groundwater, and excess facilities, and about 14 percent going to 
manage wastes streams related to those cleanup activities. The 
remaining 10 percent covers mission activity support, including costs 
for program oversight provided by our Federal personnel, and technology 
development.
    Mr. Chairman, let me point out that the administration recognizes 
that EM's fiscal year 2009 budget request of $5.528 billion is based 
on, and would implement, an environmental management approach under 
which the Department would not meet some of the milestones and 
obligations contained in the environmental agreements that have been 
negotiated over many years. It is also important to recognize that some 
upcoming milestones will be missed regardless of the approach that is 
chosen and its associated level of funding.
    Moreover, some of the relevant agreements were negotiated many 
years ago, with incomplete knowledge by any of the parties of the 
technical complexity and magnitude of costs that would be involved in 
attempting to meet the requirements. This incomplete knowledge, coupled 
with other issues including contractor performance, overly optimistic 
planning assumptions, and emerging technical barriers, also have 
impeded the Department in meeting all milestones and obligations 
contained in the environmental compliance agreements.
    In planning its environmental cleanup efforts and developing the 
budget for those activities, the Department seeks to focus on work that 
will produce the greatest environmental benefit and the largest amount 
of risk reduction. The Department strongly believes that setting 
priorities and establishing work plans in this way is the most 
effective use of taxpayer funds and will have the greatest benefit, at 
the earliest possible time, to the largest number of people.
    In determining these priorities, the Department works closely with 
the Federal and State regulators, and will seek the cooperation of 
those entities in helping evaluate needs and focus work on the highest 
environmental priorities based on current knowledge, particularly where 
doing so necessitates modification of cleanup milestones embodied in 
prior agreements with the Department.

                        MANAGING OUR PRIORITIES

    When I appeared before this subcommittee 2 years ago, I pledged 
that safety would remain our first priority. All workers deserve to go 
home as healthy as they were when they arrived at the job in the 
morning. No milestone is worth any injury to our workforce. I am 
pleased to say that EM's safety performance continues to be 
outstanding. As a result of collaborative efforts by DOE and our 
contractors, worker injuries have been reduced by 50 percent during the 
past 3 years. Currently EM's injury rate is less than 10 percent of 
comparable commercial waste disposal and construction industries.
    Another priority we discussed 2 years ago was my goal of making EM 
a high-performing organization by every measure. This goal has required 
us to look critically at every aspect of how we plan, procure, execute 
and manage every project under our jurisdiction, and how we align every 
dollar the taxpayers provide to achieving environmental cleanup goals.
    On the subject of our management practices, in September 2005, 
Congress asked NAPA to undertake a management review of EM, including 
an assessment of EM's human capital. NAPA's study, conducted over a 
period of 18 months, was very interactive; we opened our operations to 
NAPA for scrutiny and in turn have embraced and implemented nearly all 
of NAPA's proposals.
    Most of all, we were gratified that NAPA concluded in its final 
report issued this past December that EM, ``is on a solid path to 
becoming a high-performing organization.'' We know we have much 
remaining to be accomplished, but we take NAPA's conclusion as a sign 
that we are, in fact, headed in the right direction with regard to how 
we function as an organization.
    A budget is only as good as its planning basis. Our request is 
developed from our project baselines that define the scope, cost, and 
schedule for each project, and I have much to report to you in this 
area. When I assumed this position, I was concerned that the accepted 
baselines for many of our projects were unrealistic. The reasons for 
this included overly aggressive assumptions in the technical and 
regulatory arenas, increasing costs of materials and simple 
underperformance.
    Since that time, our sites have undergone an independent review to 
verify the reasonableness of the scope, cost, and schedule for each 
project. This review also documented assumptions and associated risk 
management plans that supported baseline development. As a result, all 
near-term baselines up to 5 years have now been independently reviewed 
and verified, while long-term cost ranges have been determined to be 
reasonable. As we move forward in the fiscal year 2009 budget process, 
I believe that the subcommittee can view near-term cost assumptions 
associated with our projects with greater confidence than ever before.
    The majority of EM sites do, in fact, include baselines with 
completion dates beyond 2013. Through a collaborative process with our 
field sites, EM is seeking to define aggressive but achievable 
strategies for accelerating cleanup of distinct sites or segments of 
work that involve multiple sites. Moreover, it is important to note 
that EM's site cleanup activities are managed as one integrated 
national program; the work and risks associated with each site are 
inherently interrelated with that at other sites. Thus, we continue to 
evaluate and implement cross-site risk priorities and cleanup 
activities.
    In 2005, we set out to integrate proven project management tools 
into our business processes, and address our shortcomings in project 
management by using DOE and industry-standard business management 
tools. I stated to you in 2006 that our goal was for at least 90 
percent of our projectized portfolio to perform on-target, or better 
than on-target regarding cost and schedule. I am pleased to report that 
we now consistently meet that goal--in excess of 90 percent of our 
portfolio, currently numbering more than 65 independently audited 
projects, consistently performs within cost and schedule targets.
    As an ``acquisition'' organization, EM accomplishes its mission 
through procurement and execution of our projects. Since the contract 
serves as the principal agreement governing how a project is executed 
between DOE and the contractor, contract and project management must be 
seamlessly managed in parallel. To oversee this process, about 18 
months ago, we implemented an organizational structure, including the 
creation of a Deputy Assistant Secretary for Acquisition and Project 
Management. This position integrates the two functions of procurement 
planning and project management, helping us to professionalize the 
procurement process so that we learn from, and improve upon, each 
contract experience. Moreover, it provides us with strong management 
oversight after the contract is awarded. We are striving to make EM 
nothing short of a ``Best-in-Class'' organization for project and 
contract management and engineering and technology.
    The fiscal year 2009 Technology Development and Deployment Program 
will be highly focused and concentrate its investments in EM high 
priority cleanup areas, including radioactive tank waste, soils and 
groundwater remediation, and deactivation and decommissioning excess 
facilities. Best-in-class performers, including other Federal agencies, 
the national laboratories, the university system, and private industry 
will be utilized to conduct the Technology Development and Deployment 
scope.
    The EM program has always required a strong technology component to 
accomplish its mission, one that is focused on developing and deploying 
technologies to enhance safety, effectiveness, and efficiency. As we 
look ahead to our cleanup work, we face the ongoing challenge of 
maturing and integrating technology into first-of-a-kind solutions. An 
Engineering and Technology Roadmap has been developed to address this 
need. The Roadmap identifies the technical risks the EM program faces 
over the next 10 years, and strategies to address the risks. EM's 
validated baselines are a powerful tool that allows EM managers to 
identify the points at which new knowledge and technology can be 
efficiently inserted into EM cleanup projects to address risks.

                      BUDGETING FOR OUR PRIORITIES

    Before I discuss the fiscal year 2009 budget request, allow me to 
draw attention to the significant cleanup progress achieved recently. 
We have:
  --Completed stabilization and packaging for all plutonium residues, 
        metals, and oxides and begun consolidation of all of these 
        materials at the Savannah River Site (SRS);
  --Produced for disposition more than 2,500 cans of vitrified high-
        level waste from highly radioactive liquid wastes;
  --Completed retrieval and packaging for disposal of more than 2,100 
        metric tons of spent nuclear fuel from K-basins at Hanford to 
        protect the Columbia River;
  --Shipped more than 50,000 cubic meters of transuranic (TRU) waste 
        from numerous sites to the Waste Isolation Pilot Plant (WIPP) 
        for permanent disposal, including 25,000 out of a planned 
        30,000 drums from SRS;
  --Disposed of nearly one million cubic meters of legacy low-level 
        waste and mixed low-level waste;
  --Eliminated 11 of 13 high-risk material access areas through 
        material consolidation and cleanup;
  --Cleaned up the Melton Valley area at the Oak Ridge Reservation and 
        continued decontamination and decommissioning of three gaseous 
        diffusion buildings at Oak Ridge; and
  --Disposed of more than 8,500 tons of scrap metal from Portsmouth.
    The program has made significant progress in shifting focus from 
risk management to risk reduction. This focus on measurable risk 
reduction continues to be the guiding principle behind the development 
of our fiscal year 2009 budget request.
    To strike the balance that allows EM to continue achieve risk 
reduction and pursue cleanup goals, we propose funding the following 
risk reduction and regulatory activities in priority order:
  --Stabilizing radioactive tank waste in preparation for treatment 
        (about 32 percent of the fiscal year 2009 request);
  --Storing, stabilizing, and safeguarding nuclear materials and spent 
        nuclear fuel (about 18 percent of the fiscal year 2009 
        request);
  --Disposing of transuranic, low-level, and other solid wastes (about 
        14 percent of the fiscal year 2009 request); and
  --Remediating major areas of EM sites, and decontaminating and 
        decommissioning facilities (about 26 percent of the fiscal year 
        2009 request).

                    FISCAL YEAR 2009 BUDGET REQUEST

    The Department's fiscal year 2009 budget request for the Office of 
Environmental Management is $5.528 billion. The request consists of 
three appropriations, Defense Environmental Cleanup, Non-Defense 
Environmental Cleanup, and the Uranium Enrichment Decontamination and 
Decommissioning Fund.
    For fiscal year 2009, EM's funding priorities to best address our 
environmental cleanup challenges are:
  --Conducting cleanup with a ``Safety First'' culture that integrates 
        environment, safety and health requirements, and controls into 
        all work activities to ensure protection to the worker, public, 
        and the environment;
  --Establishing a disposition capability for radioactive liquid tank 
        waste and spent nuclear fuel;
  --Securing and storing nuclear material in a stable, safe 
        configuration in secure locations to protect national security;
  --Transporting and disposing of transuranic and low-level wastes in a 
        safe and cost-effective manner to reduce risk;
  --Remediating soil and groundwater in a manner that will assure long-
        term environmental and public protection; and
  --Decontaminating and decommissioning facilities that provide no 
        further value to reduce long-term liabilities while remediating 
        the surrounding environment.
    Examples of milestones and planned activities for fiscal year 2009 
by site-specific categories are:
Idaho
  --Meet requirements in the Idaho Settlement Agreement to ship stored 
        contact-handled and remote-handled transuranic (TRU) waste to 
        the Waste Isolation Pilot Plant (WIPP).
    The Idaho National Laboratory will continue characterizing, 
treating, packaging, and transporting of contact-handled and remote-
handled TRU waste to WIPP.
  --Continue construction of the sodium-bearing waste treatment 
        facility to support tank waste retrievals.
    The overall objectives of this project are to treat and dispose of 
sodium-bearing tank wastes, close the tank farms tanks, and perform 
initial tank soil remediation work. Construction and operation of the 
sodium-bearing waste treatment facility will reduce potential risk to 
human health and the environment by preventing the potential migration 
of contamination into the Snake River Plain Aquifer, which is a sole-
source aquifer for the people of Southeastern Idaho.
  --Complete the transfer of all EM-managed spent nuclear fuel to dry 
        storage.
    EM will continue to promote the safe and secure receipt and dry 
storage of spent fuel to protect the Snake River Plain Aquifer.
Los Alamos National Laboratory
  --Promote soil and water remediation.
    The Los Alamos National Laboratory (LANL) Soil and Water 
Remediation Project scope includes identification, investigation, and 
remediation of chemical and or radiological contamination attributable 
to past Laboratory operations and practices. In order to support the 
project scope, in fiscal year 2009 EM plans to: complete required 
groundwater monitoring within eight watersheds, install four regional 
aquifer monitoring wells, complete four soil cleanups, including 
Material Disposal Area R in Technical Area-16, and continue remediation 
of tanks at the Material Disposal Area A in Technical Area-21.
  --Continue TRU waste shipments to WIPP.
    The Solid Waste Stabilization and Disposition Project includes the 
treatment, storage, and disposal of legacy TRU and mixed low-level 
waste generated between 1970 and 1999 at LANL. The end-state of this 
project is the safe disposal of legacy waste from LANL. In fiscal year 
2009, EM plans to continue characterization and certification of TRU 
waste for shipment to WIPP and continue services and safety-related 
activities to maintain the waste inventories in a safe configuration 
and within allowable Material-at-Risk limits established for the site.
Moab
  --Complete necessary transportation upgrades and tailings handling 
        infrastructure and initiate movement of uranium tailings off 
        the Moab site.
    The relocation of the mill tailings at the Moab site to a 
Department of Energy constructed disposal facility near Crescent 
Junction, Utah, is necessary. In fiscal year 2009, EM plans to complete 
the rail upgrades between Moab and Crescent Junction and begin 
transporting tailings to Crescent Junction from Moab. Moreover, the 
Record of Decision has been amended to allow the tailings to be 
transported by either truck or rail. In addition, EM will continue 
disposal cell excavation at Crescent Junction.
Oak Ridge
  --Continue decontamination and decommissioning (D&D) of K-25 Process 
        Building.
    The gaseous diffusion plant comprises one of the largest complex of 
buildings in the world. In fiscal year 2009, EM will continue to vent, 
purge, and drain, characterize, remove of high risk equipment and carry 
out required foaming activities for the east and north wings of the K-
25 process building. Demolition of the west wing of the K-25 process 
building will be conducted.
  --Complete final design for the Uranium-233(U-233) down-blending 
        project and begin Building 3019 modifications.
    The U-233 inventory in Building 3019 will be down-blended as 
expeditiously as possible to reduce the substantial annual costs 
associated with safeguards and security requirements and to address 
nuclear criticality concerns raised by the Defense Nuclear Facilities 
Safety Board (DNFSB).
  --Process and ship contact-handled and remote-handled TRU waste to 
        WIPP.
    Approximately 300 cubic meters of contact-handled TRU debris and 
100 cubic meters of remote-handled TRU debris will be processed for 
disposal at WIPP.
  --Decontaminate and decommission (D&D) the Y-12 National Security 
        Complex and Oak Ridge National Laboratory (ORNL).
    Remediation of the Corehole 8 plume at ORNL and of mercury 
contamination at Y-12 will be performed. The on-site disposal cell for 
receipt of D&D debris and cleanup waste will be expanded.
Paducah
  --Initiate operations of the Depleted Uranium Hexafluoride 
        (DUF<INF>6</INF>) Conversion Facility.
    The DUF<INF>6</INF> conversion facility will convert depleted 
uranium hexafluoride into a more stable form, depleted uranium oxide, 
which is suitable for reuse or disposition. The depleted uranium oxide 
will be sent to a disposal facility or reused, the hydrogen fluoride 
by-products will be sold on the commercial market, and the empty 
cylinders will be disposed of or reused.
  --Complete disposition of legacy waste.
    The Paducah Gaseous Diffusion Plant is responsible for some of the 
waste streams that were generated by the United States Enrichment 
Corporation's operation of the Plant. The disposition of this legacy 
waste will reduce risk and storage costs and is critical to 
accelerating site cleanup.
  --Reduce risk through focused cleanup of soil and waste.
    The completion of characterization and disposition of recently 
discovered soil and rubble piles along the river and closure and 
disposition of all DOE Material Storage Areas will also aid in lowering 
the risk to human health and the environment.
Portsmouth
  --Initiate operations of the DUF<INF>6</INF> Conversion Facility.
    Similar to Paducah, the DUF<INF>6</INF> conversion facility will 
convert depleted uranium hexafluoride into a more stable form, depleted 
uranium oxide, for reuse or disposal. The depleted uranium oxide will 
be sent to a disposal facility or reused, the hydrogen fluoride by-
products will be sold on the commercial market, and the empty cylinders 
will be disposed of or reused.
  --Complete cold shutdown activities in the former gaseous diffusion 
        operations facilities and award the D&D contract.
    The transition of the Gaseous Diffusion Plant from cold shutdown to 
decontamination and decommissioning will continue. In addition, 
Portsmouth plans to complete X-701B oxidation injection system 
groundwater field treatment activities.
Richland
  --Complete shipping of special nuclear materials from the Plutonium 
        Finishing Plant (PFP).
    The PFP complex consists of several buildings that were used for 
defense production of plutonium nitrates, oxides and metal from 1950 
through early 1989. As part of the PFP cleanup, Richland's goal is to 
complete shipments of special nuclear materials off-site to the 
Savannah River Site and procure additional casks to support completion 
of the shipping campaign by the end of fiscal year 2009.
  --Enhance groundwater remediation at the Central Plateau and along 
        the Columbia River.
    Over 50 years of weapons production at the Hanford site has left 
the groundwater contaminated by carbon tetrachloride, chromium, 
technetium 99, strontium, and uranium. EM is dedicated to protecting 
the groundwater resources at Hanford as well as the Columbia River, 
through deployment of innovative technologies in fiscal year 2009 to 
address all of the contaminants in the vadose zone and groundwater, 
with supporting investigations such as installation of new wells for 
monitoring and characterization, and geophysical logging to provide 
additional subsurface information on contaminant distribution.
  --Cleanup of waste sites and facilities along the Columbia River 
        Corridor including K-East Basin D&D.
    The K Basins project is a high priority risk reduction activity due 
to its close proximity to the Columbia River. To date, we have 
completed the removal, packaging, and transportation of approximately 
2,100 metric tons of degrading spent nuclear fuel, removal of an 
estimated 44 cubic meters of radioactively contaminated sludge, and the 
basin water is now being pumped out. In fiscal year 2009, the K-East 
basin will be completely demolished. The end-state of the K Basins 
cleanup will mean the removal of more than 55 million curies of 
radioactivity from near the Columbia River.
  --Retrieve suspect contact-handled and remote-handled TRU waste from 
        burial grounds and continue to ship to WIPP.
    The Hanford Site contains thousands of containers of suspect 
contact-handled and remote-handled TRU waste, low-level waste, and 
mixed low-level waste. Activities planned in fiscal year 2009 are to 
retrieve 1,100 cubic meters of suspect contact-handled and remote-
handled TRU waste from the low-level burial grounds, continue 
certification of transuranic waste, and dispose of on-site generated 
low-level and mixed low-level wastes at the mixed waste disposal 
trenches.
River Protection
  --Manage the tank farms in a safe and compliant manner until closure.
    The radioactive waste stored in the Hanford tanks was produced as 
part of the Nation's defense program and has been accumulating since 
1944. To protect the Columbia River, the waste must be removed and 
processed to a form suitable for disposal and the tanks must be 
stabilized. To reach these goals, EM plans to enhance the Single-Shell 
Tank Integrity Program, continue to develop retrieval technologies and 
retrieve waste from approximately one tank per year, and continue to 
evaluate supplemental treatment technology, and interim pre-treatment 
capabilities.
  --Advance in Waste Treatment and Immobilization Plant construction.
    The Waste Treatment and Immobilization Plant (WTP) is critical to 
the completion of the Hanford tank waste program by providing the 
primary treatment capability to immobilize the radioactive tank waste 
at the Hanford Site. The WTP complex includes five facilities: the 
Pretreatment Facility, the High-Level Waste Facility, the Low-Activity 
Waste Facility, the Balance of Facilities, and the Analytical 
Laboratory. In fiscal year 2009, EM plans to continue construction of 
all of these facilities to achieve approximately 55 percent completion, 
while maintaining the viability of other supplemental treatment 
options. The end-state of this project will be the completion of the 
WTP hot commissioning and transfer of the facilities to an operations 
contractor to run the plant.
Savannah River
  --Continue consolidation and disposition of special nuclear 
        materials.
    The receipt, storage, and disposition of materials at the Savannah 
River Site allows for de-inventory and shutdown of other DOE complex 
sites, providing substantial risk reduction and significant mortgage 
reduction savings to the Department. In fiscal year 2009, the Savannah 
River Site will complete the receipt of surplus plutonium from the 
Hanford Site, Los Alamos National Laboratory, and Lawrence Livermore 
National Laboratory. Also in fiscal year 2009, EM plans to operate H-
Canyon/HB-Line to disposition special nuclear materials and begin 
processing of Savannah River Site's spent nuclear fuel in H-Canyon.
  --Reduce radioactive liquid waste.
    The mission of the tank waste program at Savannah River is to 
safely and efficiently treat, stabilize, and dispose of approximately 
37 million gallons of legacy radioactive waste currently stored in 49 
underground storage tanks. In fiscal year 2009, planned EM activities 
include: continue operation of Actinide Removal Project, Modular 
Caustic-Side Solvent Extraction Unit, and the Defense Waste Processing 
Facility, continue the construction of the Salt Waste Processing 
Facility; and prepare sludge batches in support of continued high-level 
waste vitrification. Activities are planned to free up additional tank 
space, such as treatment of organic waste in the 1.3 million gallon 
Tank 48 to return the tank to useful service.
Waste Isolation Pilot Plant
  --Continue safe shipment, receipt, and disposal of contact-handled 
        and remote-handled TRU waste.
    WIPP in Carlsbad, New Mexico, is the Nation's only mined geologic 
repository for the permanent disposal of defense-generated TRU waste. 
In fiscal year 2009, the budget request supports up to 21 contact-
handled TRU and up to 5 remote-handled TRU shipments per week from 
across the DOE complex.

                               CONCLUSION

    Mr. Chairman, I am proud of the progress the EM program has made in 
recent years, both in terms of meeting the Nation's cleanup priorities, 
and in building the foundation for future efforts. I respectfully 
submit EM's fiscal year 2009 budget request and am pleased to answer 
your questions.

    Senator Dorgan. Mr. Rispoli, thank you very much. Finally 
we will hear from Mr. Sproat. Mr. Sproat, you may proceed.

STATEMENT OF HON. EDWARD F. SPROAT III, DIRECTOR, 
            OFFICE OF CIVILIAN RADIOACTIVE WASTE 
            MANAGEMENT
    Mr. Sproat. Good morning, Senator and good morning, members 
of the committee. And thank you very much for the opportunity 
to come this morning to address you about my office, the Office 
of Civilian Radioactive Waste Management and the President's 
2009 request for the Yucca Mountain program.
    But I'd like to start off with just recapping what I told 
this committee last year at this time in terms of what we 
planned to do in fiscal year 2008 with the President's budget 
request for fiscal year 2008, which was $494.5 million. I told 
the committee at that time that with that money in this fiscal 
year we intended to deliver the license application for Yucca 
Mountain to the Nuclear Regulatory Commission no later than 
June 30, of this year. I also told the committee that we would 
certify the licensing support network the major litigation 
support database that the NRC requires by December 2007. I also 
said that we would complete the supplemental environmental 
impact statement.
    I said we would deliver the report to Congress, that 
Congress requires on a need for a second repository. And I said 
we would revise and issue to file an environmental impact 
statement for the Nevada rail line in fiscal year 2008.
    Now as the committee is very much aware, we ended up 
receiving from Congress $386.1 million or $108 million less 
than the President requested. And we received that at the end 
of the first fiscal quarter, or the first quarter of the fiscal 
year. Obviously it presented significant management challenges 
to my management team.
    However, we have put in place significant improvements in 
the management approaches, management processes for our office. 
And I'm very pleased to be able to report to the committee that 
despite the $108 million reduction in appropriations, we will 
meet or beat all of the deliverables schedules that we told 
this committee that we would provide at this time last year. So 
we are on schedule. And we will deliver a high quality 
docketable license application to the Nuclear Regulatory 
Commission for the repository during the month of June of this 
year.
    Now one of the things I would like to point out to the 
committee is that with that $108 million reduction from the 
President's request in fiscal year 2008, on top of the $100 
million reduction from fiscal year 2007 we are not able to 
maintain the best achievable date for opening a repository of 
March 2017. That date is no longer achievable. And I'll talk a 
little bit in a minute about what we're doing to provide the 
committee a better understanding and a better forecast of when 
a repository could be open and under what conditions.
    So let me turn to our fiscal year 2009 appropriation 
request, which is $494.7 million or essentially a flat request 
compared to the President's request for fiscal year 2008. One 
of the things the committee may not or may be aware when I 
talked to you last year, I talked about, within the context of 
the best achievable date for opening a repository, what the 
cash flows, projected cash flows, were required to do that; to 
open by 2017.
    And that cash flow included a projected budget request of 
$1.2 billion for fiscal year 2009. And as the committee will 
note, we have not requested anywhere near that amount for 
fiscal year 2009. And we have limited our budget request to an 
amount that we need to support the license application review 
and defense in front of the Nuclear Regulatory Commission and 
to maintain certain critical path design activities, but we 
will not be able to maintain all of the critical path 
activities needed to support a 2017 opening date with this 
budget request.
    And the reason that we haven't requested that $1.2 billion 
is that based on our experience and the difficulties that this 
committee is very much aware of in the appropriations process 
that we've gone through in fiscal year 2007 and fiscal year 
2008. We believe it's unrealistic to expect Congress to 
authorize a significant increase in my program's funding that's 
required to open the repository in the shortest possible time. 
Therefore what we are doing is we're rebaselining this program 
in terms of a new set of assumptions that assumes essentially 
flat funding during the license application defense process and 
then ramping up after the Nuclear Regulatory Commission gives 
the Department a construction authorization in 2011 or 2012.
    So, just turning back to fiscal year 2009 with the budget 
request that's in front of you, we intend to defend the license 
application that we'll be submitting to the Nuclear Regulatory 
Commission. We'll begin some detailed design for the repository 
facilities itself. We're going to complete some of the contour 
mapping for the Nevada rail line. And we're going to continue 
with developing the Federal capability to actually oversee 
construction and operation of this repository as well as 
further development of the security and safeguards programs 
needed to run a high level waste repository under the Federal 
Government.
    So, let me just close by addressing the issue of what is it 
going to take to actually be able to build this repository? 
It's very clear that under any scenario of recycling or non-
recycling, we still will need a deep geological repository for 
both the defense level waste and spent nuclear fuel and that 
funding required to build a repository will be at levels 
significantly higher than historical funding levels that this 
program has received in the past.
    And that without a dependable funding source from the 
Nuclear Waste Fund, which was originally intended, it really 
becomes impossible to provide a new firm date to the committee 
as to when the repository could be open. And I'd like to remind 
the committee, based on my discussions with you last year at 
this time, that for each year beyond 2017 that we defer opening 
a repository, it's an additional half a billion dollars of 
potential taxpayer liability associated with the Government's 
non-performance on taking commercial spent nuclear fuel. And 
that our forecast that if we were opening a repository in 2017, 
that liability number was approximately $7 billion and that 
would grow at about $500 million a year beyond that date.

                           PREPARED STATEMENT

    In summary what I'd like to say is that we have made 
substantial progress on this program over the last 2\1/2\, 3 
years. I have a very high confidence level in the management 
team that I'll leave behind after I leave Government service to 
move this program forward. And that it is vitally important to 
this country that under any scenario of either open fuel cycle, 
closed fuel cycle, that we have a deep geologic repository. And 
I would respectfully request this committee to give serious 
consideration to the President's request to fund this program 
at the requested levels for fiscal year 2009.
    Thank you very much. I'd be pleased to answer whatever 
questions the committee may have.
    [The statement follows:]

            Prepared Statement of Hon. Edward F. Sproat III

    Mr. Chairman and members of the committee, I am Edward F. Sproat 
III, Director of the Department of Energy's (DOE) Office of Civilian 
Radioactive Waste Management (OCRWM). I appreciate the invitation to 
appear before the committee to discuss the President's fiscal year 2009 
budget request for my office which has the responsibility to design, 
license, construct, and operate the Nation's repository for the 
disposal of spent nuclear fuel and high-level radioactive waste, as 
defined in the Nuclear Waste Policy Act (NWPA) of 1982, as amended.
    When I came to this committee last year, I outlined a number of 
specific deliverables that OCRWM would achieve in fiscal year 2008, 
assuming appropriation of the President's request of $494.5 million, 
including:
  --Submit a License Application for a Construction Authorization for a 
        geologic repository for disposal of spent nuclear fuel and 
        high-level radioactive waste at Yucca Mountain to the Nuclear 
        Regulatory Commission (NRC) by June 30, 2008;
  --Certify DOE's Licensing Support Network collection in accordance 
        with NRC requirements and regulations by December 21, 2007;
  --Complete the Supplemental Environmental Impact Statement (EIS) for 
        a Geologic Repository for the Disposal of Spent Nuclear Fuel 
        and High-Level Radioactive Waste at Yucca Mountain;
  --Perform the analysis and deliver the report to Congress required by 
        the NWPA on the need for a second repository; and
  --Complete the final EIS for a Rail Alignment for the Construction 
        and Operation of a Railroad in Nevada to a Geologic Repository 
        at Yucca Mountain.
    Despite the President's request of $494.5 million, the Congress 
appropriated $386.4 million for OCRWM in fiscal year 2008, a reduction 
of $108.1 million from the President's request. This large reduction, 
which occurred well into the fiscal year, contributed to significant 
management challenges, and following the fiscal year 2007 appropriation 
which was approximately $100 million less than the President's request, 
caused a reduction in force of approximately 900 personnel from the 
program. The cumulative impact of these significant appropriation 
reductions is that DOE is no longer able to maintain the best 
achievable opening date of March 2017 that I presented to the committee 
last year. However, because of significant improvements we have made in 
management practices and processes, we will be able to complete all of 
the deliverables for fiscal year 2008 that I promised the committee 
last year on or near schedule, including the submittal of the License 
Application to the NRC this June.

           FISCAL YEAR 2009 BUDGET REQUEST AND KEY ACTIVITIES

    The President's fiscal year 2009 budget request for this program is 
$494.7 million. The committee will note that this amount is 
significantly less than the $1.2 billion for fiscal year 2009 that I 
presented to the committee last year as the amount needed to achieve 
the best achievable opening date of March 2017. This fiscal year 2009 
funding request reflects what the administration sees as the realities 
of the effects of the current discretionary spending budget caps on 
this program. Because the funding mechanism established by Congress for 
the program when it established the Nuclear Waste Fund is not currently 
available to offset appropriations for this program, we have limited 
our budget request to an amount that is needed to support the process 
to attain a Construction Authorization from the NRC and to continue 
some of the other critical path activities. We believe that unless 
Congress addresses the funding mechanism issue for this program by 
acting affirmatively on the proposed legislation this administration 
has sent to Congress, it is unrealistic to expect Congress to 
appropriate the significant increases in funding needed to open the 
repository in the shortest possible time (i.e., by 2017). We are 
therefore re-baselining the Program schedule and budget authority cash 
flow projections to reflect what we expect to be flat funding until the 
NRC issues the Construction Authorization. I will provide this revised 
information to the committee when it is completed.
    Fiscal year 2009 will be the first year of a multi-year license 
defense process. Following an acceptance review by the NRC, it is 
anticipated that the NRC will docket the License Application, thus 
beginning the formal licensing phase that is anticipated to last 3 to 4 
years. In fiscal year 2009, our objectives are to:
  --Defend the License Application for the repository before the NRC;
  --Begin detailed design for the facilities required for receipt of 
        spent nuclear fuel and high-level radioactive waste at the 
        repository;
  --Continue essential interactions with State, local, and tribal 
        governments needed to support national transportation planning;
  --Complete efforts to finalize the contour mapping and the layout of 
        the rail line to support land acquisition and complete a right-
        of-way application for the Nevada rail line;
  --Continue design and licensing work on the Transportation, Aging and 
        Disposal (TAD) canister system;
  --Continue staffing and training the OCRWM organization so that it 
        has the skills and culture needed to design, license, and 
        manage the construction and operation of the Yucca Mountain 
        project with safety, quality, and cost effectiveness; and
  --Continue planning and designing a compliant and well-integrated 
        safeguards and security, safety, and emergency management 
        program.
    In addition, the budget request also includes funds for the 
following activities:
  --Funding for payments-equal-to-taxes to the State of Nevada and Nye 
        County, Nevada, where Yucca Mountain is located. Our fiscal 
        year 2009 request also includes oversight funding for the State 
        of Nevada, affected units of local government and an affected 
        tribe, as well as funding for the University System of Nevada 
        and Nye County, Nevada, and Inyo County, California for 
        independent scientific studies;
  --Funding for cooperative agreements with State regional groups and 
        other key parties involved in transportation planning; and
  --Funding for Program direction which supports Federal salaries, 
        expenses associated with building maintenance and rent, 
        training, and management and technical support services, which 
        include independent Nuclear Waste Fund audit services, 
        independent technical and cost analyses, and University-based 
        independent technical reviews. We also have included funding to 
        begin the upgrade of obsolete data storage systems which house 
        the scientific data collected over the years of this program; 
        this significant asset is now at risk of loss.
          implications of non-access to the nuclear waste fund
    The NWPA establishes the requirement that the generators of high-
level nuclear waste must pay for its disposal costs. As a result, the 
Nuclear Waste Fund was created and is funded by a 1 mil per kilowatt-
hour fee on all nuclear generation in this country. As of today, the 
Fund has a balance of approximately $21.0 billion which is invested in 
U.S. Treasury instruments. The Government receives approximately $750 
million per year in revenues from on-going nuclear generation and the 
Fund averages about 5.5 percent annual return on its investments. At 
the present time, due to technical scoring requirements, appropriations 
for the Yucca Mountain repository have a significant negative impact on 
the Federal budget deficit. Specifically, the monies collected are 
counted as mandatory receipts in the budgetary process, while spending 
from the Nuclear Waste Fund is scored against discretionary funding 
caps for the Department. In legislation the administration submitted to 
the 109th Congress and has submitted again to this Congress, the 
President proposes fixing this problem by reclassifying mandatory 
Nuclear Waste Fund receipts as discretionary, in an amount equal to 
appropriations from the Fund for authorized waste disposal activities. 
Funding for the Program would still have to be requested annually by 
the President and appropriated by the Congress from the Nuclear Waste 
Fund.
    Sustained funding well above current and historic levels will be 
required if the repository is to be built. Funding at current levels in 
future years will not be adequate to support design and the necessary 
concurrent capital purchases for repository construction, 
transportation infrastructure, and transportation and disposal casks. 
The development of a credible schedule for the program is highly 
dependent upon a steady and reliable funding stream.
    The Department estimates that U.S. taxpayers' potential liability 
to contract holders who have paid into the Nuclear Waste Fund will 
increase from approximately $7.0 billion to approximately $11 billion 
if the opening of the repository is delayed from 2017 to 2020. The 
calculation of potential costs to taxpayers is a complex matter that 
depends on a number of variables that change year to year, however, on 
average the liability will increase $500 million annually. The 
Department has not attempted to calculate precisely what these costs 
would be if the opening of the repository were delayed beyond 2020. 
There will also be added costs associated with keeping defense waste 
sites open longer than originally anticipated. The Department has not 
yet estimated those costs. It can be seen, however, that each year of 
delay in opening the repository has significant taxpayer cost 
implications, as well as the potential for delaying construction of 
needed new nuclear power plants. Therefore, the administration believes 
it is in the Country's best interest to expedite construction of the 
repository and the transportation infrastructure necessary to bring 
both defense and commercial spent nuclear fuel and high-level waste to 
Yucca Mountain.

                                SUMMARY

    In summary, the President's fiscal year 2009 budget request will 
provide the needed funds to defend the License Application for a 
Construction Authorization of a geologic repository for disposal of 
spent nuclear fuel and high-level radioactive waste at Yucca Mountain. 
The significant reductions in appropriated funding for fiscal year 2007 
and fiscal year 2008, however, have negated the Department's ability to 
meet the March 2017 best achievable opening date. Each year's delay 
beyond the March 2017 date will result in increased potential taxpayer 
liability to utility contract holders as well as increased costs for 
storage at defense waste sites across the country. I respectfully urge 
the Congress to consider and pass the President's fiscal year 2009 
budget request for the OCRWM.

                          EM BUDGET SHORTFALLS

    Senator Dorgan. Mr. Sproat, thank you very much. Mr. 
Rispoli and Mr. Sproat, I was just observing to Senator 
Domenici that some while ago, some years ago, former 
Congressman Mike Parker was working for the Corps of Engineers 
representing the administration as an appointee. He came to 
Congress and in a disarming moment of candor, he said that we 
don't have enough money in the budget to do what we need to be 
doing. The next morning he was fired.
    I understand your role here today. Your role here today is 
to come up and defend the administration's budget. I understand 
that.
    But, Mr. Rispoli, your job is to clean up the mess from all 
of these nuclear weapons plants that were spread around the 
country. The plants have created an environmental hazard that's 
dramatic. So we've got to clean them up and the job of 
Environmental Management is to clean up all those plants.
    Hanford, for example, my colleague from Washington is here. 
And the fact is we have made agreements and reached agreements 
on milestones to clean them up. And the fact is this budget 
doesn't even allow you to reach the milestones that have been 
previously agreed to. Is that not the case?
    Mr. Rispoli. Senator, that is the case for there are 
milestones in jeopardy both for budget reasons as well as for 
other technical reasons. So yes, that is the case. And that has 
been acknowledged actually in the President's budget that was 
submitted to the Congress.
    Senator Dorgan. I don't understand why a portion of it is 
missing from the milestones that we've contractually agreed to 
meet. We've said here's what we're going to do. And then we 
don't ask for the money for it. Is it because it's less 
important than something else?
    And, as I have indicated your budget has decreased $1.75 
billion over the last 4 years even as the cost of all of this 
has grown substantially. I mentioned earlier that the President 
proposes $1 billion less in water projects for this committee, 
the Corps of Engineers, and Bureau of Reclamation. We're not 
going to do that.
    I assume that someone downtown understands that we have an 
obligation to meet these milestones. And so there must be 
delivered under funding hoping we'll put the money back in, in 
order to meet our contractual obligations. Is there currently a 
proposal that you'll be laying off up to 600 people because of 
the lack of funding?
    Mr. Rispoli. Mr. Chairman, there would be approximately 
that number of people that could be looking at work force 
adjustments. It doesn't have to be that high. We're evaluating 
alternatives with several of our site managers now to see 
whether or not we can smooth out and minimize any reductions. 
It's not the pure number that we worry about. It's the loss of 
the skill.
    We have people that are very, very skilled and experienced 
at what they do. And we don't think it's healthy for the 
program to have perturbations that have sharp drops and then 
have to try to hire people back.
    Senator Dorgan. Yes. I complemented you Mr. Rispoli in my 
opening because I think this is a tough job. And you've tried 
very hard and in many areas have succeeded, but I think it is 
unfair to you and the people that are engaged in your mission 
not to have the funding that will allow us to meet what we have 
already obligated ourselves to do. You know, we're going to 
have to try to think through that here on the subcommittee.

                   YUCCA MOUNTAIN LICENSE APPLICATION

    Mr. Sproat, the license application that you are 
submitting. You're going to be submitting that before June 30. 
How has the 2008 budget that we passed impacted the content of 
the license application you're submitting this year?
    Mr. Sproat. It has not impacted the content or the quality 
of the license application that we'll be submitting primarily 
because we recognize that is the highest priority the program 
had. It's on the critical path to repository construction. And 
so we diverted resources from other parts of the program to 
make sure that we had the right people and retained the right 
people in scientific expertise and engineering expertise needed 
to put together a high quality license application to meet our 
commitment date of submitting that by June 30, of this year.
    Senator Dorgan. If you submit a license application for 
Yucca Mountain and the Nuclear Regulatory Commission ultimately 
authorizes construction, can the Department of Energy begin 
construction of the repository without any changes to existing 
law and can DOE begin transporting and disposing of nuclear 
waste in the repository without changes to existing law?
    Mr. Sproat. No, Senator, there will be additional changes 
required. Specifically, the Nuclear Regulatory Commission would 
not give the Department a construction authorization until 
Congress had legislated land withdrawal for the geologic 
repository operations area or GROA, around the Yucca Mountain 
site, even though it's federally owned land to withdraw the 
land, similar to what was done with the Waste Legislation Pilot 
Project in New Mexico. Congressional legislation is required so 
that the Secretary of Energy can show to the Nuclear Regulatory 
Commission that the Department has total ownership and control 
of that land in perpetuity.
    Senator Dorgan. Do you agree with Senator Domenici's 
implied suggestion in his opening statement that a Yucca only 
policy is leading us into a box canyon of sorts?
    Mr. Sproat. What I would say is I think the primary thrust 
of the Senator's point is that there is a lot of residual 
energy in commercial spent nuclear fuel. And to put it directly 
underground as waste or dispose of that energy content doesn't 
make sense, I think is a very valid point.
    What I would say, though, is this is not an either/or 
question. That under any scenario, even if we go to fuel 
recycling of spent nuclear fuel, there is high level nuclear 
waste residual from that. And we currently have a significant 
inventory of high level nuclear waste from the Defense Program 
and the naval spent nuclear fuel from the naval reactors that 
needs to go into a deep geologic repository regardless of what 
we do with the commercial spent nuclear fuel inventory.
    Senator Dorgan. Senator Domenici?

                          SPENT FUEL DISPOSAL

    Senator Domenici. Mr. Chairman, thank you for laying the 
question directly before Mr. Sproat. Let me make sure the 
record is clear from my standpoint. Your statement that even if 
we go, we have a recycling facility, and I would assume we're 
both talking when you say recycling, we're talking about the 
French model perhaps. There is, the British have one too.
    But let's talk about the French model. If in fact that was 
used, the residual, the ultimate waste to be disposed of is 
nothing like spent fuel rods, right?
    Mr. Sproat. That is correct.
    Senator Domenici. It is much less toxic in terms of its 
half-life, right?
    Mr. Sproat. That is correct.
    Senator Domenici. It is far less in quantity than the 
quantity that is the spent fuel rod quantity, right?
    Mr. Sproat. Well, Senator, in terms of the high level 
waste, that's correct. However there are additional waste 
streams out of the recycling process greater than Class C waste 
and there are significant volumes of that that are produced.
    Senator Domenici. Yes, but the point that I make is that 
you don't need a Yucca Mountain type repository for most of the 
waste that is part of the residual of recycling. In fact, you 
could if you wanted to without any question, you could put it 
in the salt of Carlsbad, most of it.
    Mr. Sproat. Under, if the law was changed to allow that, 
yes. However----
    Senator Domenici. But wait, I'm not talking about WIPP, I'm 
talking about salt.
    Mr. Sproat. While salt is a great medium for storage of 
high level waste and for isolation from the environment, and 
the Germans are using salt beds, the problem is, is that under 
current U.S. regulations, under the Nuclear Waste Policy Act, 
retrievability is a requirement. In other words----
    Senator Domenici. I understand.
    Mr. Sproat. Salt is not a medium that makes retrievability 
very easy.
    Senator Domenici. We're not going to ask the Congress to 
authorize the building, Mr. Chairman, of a recycling facility 
and leave all the other laws in place. We would change the law 
at the same time that you were referring to. There's no need to 
have the ultimate waste that would come from recycling, that 
small amount of modest level waste. It's not a high. There's no 
need to have it retrievable. That law was----
    Mr. Sproat. That's correct.
    Senator Domenici. The reason for that law was we were 
putting in the ground very valuable sources of energy and it 
was stupid to put it in and lock it up because someday we might 
find that we take it out, like they are in Russia. They use it. 
But they recycle it and use it or in any event that's the 
answer to your question.
    I want to thank you very much for what you've done for the 
country. And I'll ask you the questions. You could not have 
done this, you could not be where you are without the good 
people at Los Alamos. Is that correct?
    Mr. Sproat. At Los Alamos and Sandia.
    Senator Domenici. Sandia is the leader.
    Mr. Sproat. Sandia National Laboratory is our lead lab on 
the post closure scientific analysis. They're the ones who have 
integrated all the 20 plus years of scientific data and put 
together the analysis that's contained in the licensing 
application. They've done an outstanding job.
    Senator Dorgan. Mr. Chairman, would you yield on that 
point? I complemented Mr. Rispoli. Let me also say I neglected 
to say how much I appreciate the work of Mr. Sproat. That's a 
tough job that you took on and I appreciate it very much.
    Mr. Sproat. Thank you, Senator.
    Senator Domenici. Thank you, Mr. Chairman. I tell you that 
when he told me some time ago he would get it done. And when 
those troops up there at Sandia said they'd get it done, I said 
you won't. The first time I wanted to scream at you all and you 
were right. You did it.
    Mr. Sproat. Thank you.
    Senator Domenici. So far. We'll see what they say over 
there.

             MISSED COMPLIANCE AGREEMENTS MILESTONES FINES

    Mr. Rispoli, let me just get square on record so we'll 
know. Who will pay the fines, fines that may ensue in New 
Mexico for the failure to meet the court agreed time on clean 
up at Los Alamos. You know they have an environmental man who 
imposes hearty fines. Are you all going to pay or do you expect 
the laboratory at Los Alamos to pay it?
    Mr. Rispoli. In the past the fines have been paid either by 
the Department or by the contractor that operates the activity 
depending upon the basic reason for missing the milestone or 
violation of the agreement. If it were, for example, purely a 
budget driven reason then I would expect the United States 
Government would pay for it from our budget. If on the other 
hand, a milestone were missed because of some technical 
difficulty or a different interpretation, for example, of the 
requirement, then typically the contractor would wind up paying 
for that fine.
    Senator Domenici. As a result of this budget can you tell 
me how many of the milestones you anticipating missing and the 
resulting delays this may have on project completion? And since 
that's a very big number, would you just do that on Los Alamos, 
please?
    Mr. Rispoli. At Los Alamos, we would expect to miss because 
of budget, three milestones. And we anticipate that the cost to 
accomplish those three milestones would be about $100 million. 
I would also point out that at any given time, we are tracking 
over 1,500 milestones in our program. At any given time over 
1,500, typically 250 a year.
    And that does not include some intermediate milestones that 
the sites also track because they're so small that they are 
just on their schedules. So, yes, we will be looking at 
milestones throughout the complex. But I do want to state for 
the record that we basically renegotiate milestones rather 
regularly, as there are technical difficulties or in some cases 
the regulator can't review the documents fast enough.
    Senator Domenici. Yes.
    Mr. Rispoli. So I just wanted to point out that it's a huge 
number of milestones that we deal with. And that for the number 
missed, we basically try to do that as best we could from a 
risk prioritization method.
    Senator Domenici. Now, let's stay with the one in Los 
Alamos. It's--if you miss the milestone there is there any 
serious risk if the milestone is reset in that particular clean 
up project?
    Mr. Rispoli. If we are in jeopardy of missing milestones we 
do, in all cases, attempt to negotiate, meet with the regulator 
to see whether they would have us reprioritize the resources we 
have. So without answering specifically to any of the 
milestones that we're looking at this year, we would always 
dialogue with the regulator to see whether we should do some 
that we thought would be a lower priority but perhaps in their 
view would be a higher priority. And I will state that we do 
that across-the-board with the regulators in all our States.
    Senator Domenici. So this serious risk at Los Alamos, that 
would be readjusted.
    Mr. Rispoli. Yes, sir.
    Senator Domenici. With others in mind.
    Mr. Rispoli. That is correct, Senator.
    Senator Domenici. Can you keep us posted on that?
    Mr. Rispoli. Yes, we can.
    Senator Domenici. Through the committee if you'd like so 
the chairman could know also.
    Mr. Rispoli. Yes, we can.
    Senator Domenici. Thank you, Mr. Chairman.
    Senator Dorgan. Senator Craig.
    Senator Craig. Thank you, Mr. Chairman. Mr. Rispoli, let me 
pick up where Senator Domenici left off. You're obviously 
calculating the potential for fines with milestones missed. So, 
system wide, how much would that figure be if there was a 
refusal to renegotiate? You just simply missed a milestone, 
paid the fine. Have you calculated that?
    Mr. Rispoli. We've run numbers for the milestones that are 
in jeopardy. We don't know that all of them would be missed. 
And in fact we're in the process of renegotiating some now.
    Senator Craig. Ok.
    Mr. Rispoli. But if all were missed it would approach $10 
million, if all were missed.
    Senator Craig. Ten million dollars?
    Mr. Rispoli. It would approach that number, yes, Senator.
    Senator Craig. You know you're down $94 million in the 
Idaho clean up. And, you know, I guess my sadness there is 
you've done so well. And I mean that as a compliment.
    And you ought to be complimented for it because you have 
done well. And Idaho has recognized it and applauded it. And 
it's given the lab a level of recognition that is very, very 
important.
    We were never a weapons lab. We don't have the kind of 
legacies, if you will, that some do. But we do have legacies. 
We've obviously got the legacy of Rocky Flats.
    And we're also very proud. We cleaned up Rocky Flats where 
we did that by moving it out of Idaho. And we're going to miss 
a milestone or two in Idaho. At least that's what we're being 
told could be the consequence of this $94 million reduction.
    So, Mr. Chairman, when you talk about frustrations as 
Senator Domenici and I do, I mean, that's all part of it. Also 
as you know, I've been pushing to take lab waste, move it over 
to EM and I understand the frustration of that. I understand 
there's going to be a response coming forward sooner rather 
than later.
    What if Congressman Mike Simpson and I just simply 
legislated it? Just said here it is. Now the argument is you 
won't take it because there isn't any money.
    But at the same time the other side of the lab has a 
different mission than EM. It is an EM problem, ultimately. So 
why don't we just line it up appropriately and if you can't do 
it because of money then what would be wrong with us just in a 
conference report of a report simply saying, here it is. It 
doesn't change the status of it. It just simply changes your 
responsibility in relation to it.
    Mr. Rispoli. Senator Craig, I might mention that we 
actually put out a call to all departmental elements including 
the Office of both Nuclear Energy, NNSA, and the Office of 
Science. All of them have proposed transfer to EM of both 
facilities and materials. And we are evaluating that now.
    Sometime during this summer we should know. We need to be 
able to put a dollar amount on it.
    Senator Craig. Yes.
    Mr. Rispoli. Or a range, a dollar range. We don't really 
even know yet what that would be until we finish the evaluation 
of what's been proposed. It's actually over 200 facilities and 
a lot of materials that are still in those facilities.
    Senator Craig. Well, if you can get that done by this 
summer, you'll probably beat us legislatively because we're at 
a bit of a stall out here. And at the same time remember that 
money is not necessarily the treater. Because you've already 
demonstrated you're willing to cut back or have to cut back 
budgets on EM and not meet milestones.
    So what we're talking about in Idaho is doing this. Now 
this does not cost money. And nor has it changed the status of 
the need. It has simply changed who handles it.
    Mr. Rispoli. Yes, sir.
    Senator Craig. I don't see that as a money issue. I see 
that as an appropriate realigning in relation to 
responsibilities. Am I wrong?
    Mr. Rispoli. I understand. And I don't disagree. I think 
what this will enable us to do by assembling it all and 
quantifying it and putting a cost range, it will enable us to 
include it in our multiyear program.
    You can only take two points of view. One is that you 
pretend it's not there. And the other is that you recognize it 
is there and work it into your program.
    Senator Craig. Sure.
    Mr. Rispoli. And we take the view that we want to recognize 
what's there and incorporate it into our program, quantify how 
long it will take and what the cost is. So that's the approach 
we're taking.
    Senator Craig. Well, that's--it's important we do that. And 
let me say again, thank you. Work well done, a great reputation 
out in Idaho for the clean up that's underway. I'm saddened 
that all of a sudden we are consciously intending to miss 
milestones at a time when we're trying to build credibility and 
reputation as it relates to DOE's responsibility and handling 
of it.
    Very quickly, Mr. Chairman, Yucca Mountain. Listen to what 
the Director has just said. There is a legacy out there that 
has to be dealt with.
    You need to come to Idaho and look at our lab and look at 
the phenomenal volume of military waste we have there. We store 
almost all of the Navy's nuclear waste. It's cladding is such 
that it must be stored. It cannot be recycled.
    Now there is a responsibility. There is a national 
responsibility that that be handled in a permanent way. I 
understand the politics of Yucca Mountain.
    But I complement Mr. Sproat for doing exactly what he said 
he could do and he's delivering. And we have an obligation, I 
believe, to carry forward to determine. We may be recycling.
    And I agree with Senator Domenici, we ought to. The 
commercial spent fuel ought to be moved into a recycling mode. 
But following that there will remain a need for a permanent, 
deep, geologic repository for certain types of waste of the 
waste stream of clean up and also our military waste. We have--
we're now mostly bringing in about of its wet storage into dry 
storage.
    But I'll invite you to Idaho. There are a lot of shiny 
little vessels out there that are a great history that we're 
very proud of, our nuclear navy. And we have every reason to be 
proud of it. But we have every responsibility to take care of 
that waste stream.
    My position on Yucca Mountain simply cannot change, nor 
will it change as long as I'm here. And afterwards as an 
advocate for the industry there will be a need for a type of 
repository that Yucca Mountain or something like it will 
demand. Even a contemporary new nuclear industry 50 years out 
fully bound to recycling.
    Where do we then finalize the last of that legacy? You do 
it in a permanent storage facility. In the case of what we're 
doing at Yucca Mountain, we've moved that along in under 
tremendous political odds. And I think the Director needs to be 
complemented in that work. And I thank you.
    Thank you, Mr. Chairman.
    Senator Dorgan. Senator Murray.

        ENVIRONMENTAL MANAGEMENT FISCAL YEAR 2009 BUDGET REQUEST

    Senator Murray. Thank you very much, Mr. Chairman. And I, 
of course, thank you both for the work you've done. However, 
I've heard the word sad used about this budget request. I 
almost can't believe the low budget request for Environmental 
Management, and I just think it's disgraceful.
    There's an ongoing debate here on Capitol Hill right now 
about the cost of war in Iraq and Afghanistan. And we're still 
talking about cleaning up the waste that was left over from 
World War II and the cold war. This is the fourth year in a row 
that the administration has requested a budget lower than a 
year before. And the second year Congress has received a budget 
from the administration that is clearly non-compliant to meet 
the milestones across the States.
    You know this is not a partisan issue. It's not a regional 
issue. It really is a moral and a legal obligation that the 
Federal Government has to clean up and properly store dangerous 
waste across the country.
    Mr. Rispoli, several years ago, before you were working on 
this issue, there was an agreement to work on these clean up 
problems with a plan that was called Accelerated Clean Up, 
which really called for a focus on cleaning up and closing the 
less complicated sites so that we could shrink the total size 
of the complex. But it left a lot of serious issues out there. 
And the funds that were no longer needed to clean up those 
smaller sites were then supposed to be used for the larger 
sites without a reduction in the overall EM spending.
    Now working with my colleagues on the Senate Budget 
Committee this year we worked hard and we passed a budget that 
increases EM by about $500 million. But that is only the start 
of the work that needs to be done this year to properly address 
the portion of the funds that are needed. We cannot continue to 
have the administration send us declining budgets and expect 
miracles to occur here in Congress to add funding and then veto 
those appropriation bills because they're over the President's 
budget request. It just can't happen.
    So, Mr. Rispoli, I just have to ask, are you proud of this 
budget?
    Mr. Rispoli. I think, Senator, any budget process is 
difficult. I think it's true that in all the programs that you 
evaluate as Members of the Senate, you probably see most of 
them that could use more than they have. But at some point----
    Senator Murray. But these are meeting legal obligations.
    Mr. Rispoli. These are to address milestones that have been 
negotiated over many, many years. I think we are in dialogue 
with all of the States. As I indicated, to address from a 
relative risk standpoint, which of them need to be done and 
which can be postponed a bit, if you will.
    I would point out for example at Hanford at the beginning 
of this administration there was $1.2 billion per year going to 
Hanford. Now there's $2 billion per year going to Hanford. Even 
as----
    Senator Murray. Overall complex, the big plants being 
built. At it's river corridor clean up, it's a complex site. 
These are expectations that happen to be in my State, but the 
country needs this cleaned up. This is a nuclear waste site.
    Mr. Rispoli. Yes, we agree with that. And with respect to 
the river corridor, I think we are making tremendous head way 
with ground water. I'm sure----
    Senator Murray. I'll ask you about that in a minute, but 
let me go back. Do you think this budget request is adequate 
for EM overall?
    Mr. Rispoli. The President's budget in writing as submitted 
to the Congress acknowledges that the budget request will 
result in putting milestones at jeopardy both for budget 
reasons and for technical reasons.
    Senator Murray. It almost feels like there's this little 
conversation going on in the White House where they send over a 
budget request that's less than adequate in many, many ways, 
knowing that we're going to do our job because we represent 
States that are going to have disasters if those sites aren't 
cleaned up, and we're going to add the additional dollars. Then 
there's another room in the other part of the White House where 
they're saying veto every appropriation bill that's over the 
administration's request. Those two rooms better start talking 
to each other because we have potential disasters coming.
    I'm not just saddened by this budget request, I'm angered 
by this budget request. We have an obligation to clean up these 
sites.

                 EM FISCAL YEAR 2009 BUDGET PRIORITIES

    Let me ask you about the river corridor closure. That is a 
project that is performing well. It's ahead of schedule, and 
it's on budget. The workers have made great progress, 
decommissioning and demolishing the buildings in the 300 areas 
that cocoon the reactors along the Columbia River, cleaning up 
the burial sites.
    That sounds really successful to me. Yet the budget, this 
budget, that you sent us cuts that funding by $77 million. I do 
not understand why we're going to pull the rug out from under a 
high performance project.
    Now, you said you increased groundwater funding by $60 
million. But I have to ask, how do you expect the workers to 
get at the ground water when the buildings are still sitting on 
top of those sites?
    Mr. Rispoli. Senator, I think we are paying a lot of 
attention to groundwater. We are focusing on the highest 
priority locations as are shown on this map of the Hanford 
reservation. There's also a photo before you that shows that in 
the 300 Area alone we've taken down over 200----
    Senator Murray. I know that. But until we take those 
buildings down we can't get to the ground water. So 
undercutting that project by $77 million means we can't get to 
the ground water.
    Mr. Rispoli. What we are prepared to do is negotiate with 
the State. And if the State believes it's a higher priority for 
us to shift funds to tear down buildings, we can certainly 
discuss that with them. But I do believe that the commitment 
that the Secretary has shown to the Waste Treatment Plant, one 
of the largest public works----
    Senator Murray. That's not fair to dump it on the State. 
When the administration asks for $77 million less for river 
corridor closure what it truly means is that there will have to 
be layoffs this summer. Once the appropriation bill is written 
with additional dollars it will be too late. Somehow we're 
supposed to find these people again a few months later and hire 
them back.
    These jobs are dangerous. And we have to have, as you said 
a few minutes ago, people who are highly skilled doing them. I 
don't understand how we can manage these complex jobs that are 
out there and just say we'll negotiate with the State. This is 
in my State, but this is a national project.
    Mr. Rispoli. Senator, with all due respect I wasn't meaning 
to dump anything on the State. I think we, and the State, have 
a very, very formidable challenge in Washington. I think we 
recognize that Hanford is probably the most significantly 
contaminated site we have.
    And I believe that it's important that we and the State 
work together. We have over 10,000 workers there just in the 
environmental program that are residents of that State, working 
very, very hard to deliver the good work that they're 
delivering. I think the reality is that when your needs exceed 
the budget amounts you have to use some sort of a 
prioritization.
    Senator Murray. When our needs exceed our budget amounts, 
somebody over in OMB decides a random budget amount and then 
says anything above that is just a need someplace. These are 
clean up sites. This is nuclear waste. These are projects that 
are highly complicated.
    Mr. Chairman, I just think we're playing with fire here the 
way these have been volleyed back and forth. I'm out of time. I 
do have some other questions, but I will wait until the next 
round.
    Senator Dorgan. Well, Senator Murray, I understand your 
passion and concern. I share it. I don't know whether you were 
here when I mentioned about former Congressman Mike Parker. But 
when he showed up and expressed dissatisfaction with the 
President's budget he lost his job the next morning. So I guess 
neither of us probably expects someone from the administration 
to come and say that they're short of money.
    But it's pretty clear to me that this budget, Mr. Rispoli, 
does not give you the resources that had previously been 
committed to be spent to meet milestones. And if we live in a 
State, as Senator Murray does, where we have very substantial 
clean up obligations, there's every reason to be angry about 
that. When the Government makes commitments, the Government 
should keep its commitments.
    And there's plenty of money for other priorities of the 
administration, but this apparently is less a priority. I think 
that we're going to have to, as a subcommittee, try to 
determine how we allocate our resources this year. It's hard to 
do. As I indicated we're short of money in a wide range of 
areas given the President's budget request. But we're going to 
work hard to try to reallocate this funding to meet the 
obligations that we believe we have.
    Senator Murray, if you wanted to ask additional questions 
I'd be glad to recognize you.
    Senator Murray. Well I appreciate that and I know that you 
need to move on. I did have some questions about the VIT plants 
and supplemental treatment. I would like to submit them and I 
really would appreciate a response back.
    On a good note, the B reactor is open for tours. I know 
we're getting great response out there at the site. I 
understand that the 2,064 seats were filled in less than 24 
hours. In my State we would say those tickets sold out faster 
than a rock concert, even if they're free.
    I do think that the B reactor is an important piece of 
history and I hope that we can continue to work with all of you 
to make it more available for the public. It's an important 
site, and it's an important part of our history, good, bad and 
ugly. I think it's important that future generations see what 
some of the people sacrificed there, what they gave up and the 
ingenuity that this country came to at a time of great 
importance.
    I will submit my other questions for the record and thank 
you very much.
    Senator Dorgan. Senator Murray, thank you very much. I want 
to mention, Mr. Rispoli, before you testified I had an 
opportunity to view these photographs and what the photographs 
demonstrate to me is that money spent on this clean up is very 
important. When we clean up a site, that's real progress and 
real value.
    So this isn't a debate about money that has little 
consequence. The expenditure of the money and the completion of 
the clean up is a very significant event. And you show some of 
that in these photographs. Although it looks like you took one 
of the photographs during the winter and the comparison in the 
spring, which gives it a slightly different look, Mr. Rispoli. 
But nonetheless, I think that this is very helpful to the 
committee. And we appreciate your work.
    Let me say to both of you, we likely will be back in touch 
with you as we move toward a mark up to solicit additional 
information about both of these programs and priorities because 
we're going to have to find a way to sift through the 
President's recommendations and come up with a set of 
recommendations that represent what the committee feels the 
appropriate priorities are.

                     ADDITIONAL COMMITTEE QUESTIONS

    I would like to ask at this time that the subcommittee 
members submit any additional questions they have for the 
record.
    [The following questions were not asked at the hearing, but 
were submitted to the Department for response subsequent to the 
hearing:]
              Questions Submitted to Hon. James A. Rispoli
               Question Submitted by Senator Patty Murray

                       THREE HANFORD PROCUREMENTS

    Question. Mr. Rispoli, my understanding is that the decisions 
regarding the award of two of the pending Hanford contracts--Central 
Plateau and Tanks Farm Operations have been delayed again. 
Additionally, there seems to be an indication the Mission Support 
Contract will be awarded last rather than first as originally expected. 
There is much uncertainty with these three large contracts yet to be 
decided and I'm looking forward to the day when Hanford has a full 
complement of Federal managers and all the major contracts awarded and 
running with adequate funding. With cleanup schedules and funding as 
tight as they are I would certainly like to see teams in place that 
have solid track records of staying on time and on budget.
    Having the Mission Support contract in place prior to awarding the 
Central Plateau and Tank Farm Operations would seem to offer an 
efficiency and ease of transition for the workers. Would you please 
explain the reason behind the order of the award of the contracts?
    Would you please provide an outline of the timing of the three 
contract awards and when they would be in place and running?
    Answer. With the recent award of the Tank Operations Contract on 
May 29, 2008 and the Plateau Remediation Contract on June 19, 2008 and 
the Mission Support Contract on track for a projected award in July-
September 2008 time frame as originally forecasted, this next 
generation of contracts will continue the important cleanup work 
conducted on the Hanford Site Central Plateau.
    The order of award is based on the uniqueness of each procurement, 
the evaluation process leading up to award along with the Department's 
efforts to minimize disruption to ongoing work while improving overall 
efficiency. Maintaining the cleanup momentum is one of several 
important considerations to the Department. Impacts are minimized given 
the specific scope of work contained in each of the three new 
contracts, detailed contract requirements for each contract transition, 
and a 90-day transition period that provides the flexibility to overlap 
each of the contract transition periods. Departmental planning for 
contract transition has considered the logical alternatives for 
contract award sequence, and can support award of the three contracts 
in any sequence
                                 ______
                                 
            Questions Submitted by Senator Pete V. Domenici

                              LANL CLEANUP

    Question. Secretary Bodman has testified earlier this year that the 
fiscal year 2009 EM budget is short across the board, and that there 
will be missed milestones. In particular, it has come out in subsequent 
testimony that the funding for environmental cleanup work at Los Alamos 
National Laboratory is short $100 million for fiscal year 2009. Who 
will pay for the expected fines that LANL will get from the State of 
New Mexico? Will it come out of planned cleanup dollars, further 
exacerbating the problem? As a result of this budget, can you tell me 
how many of the milestones you anticipating missing and the resulting 
delays this may have on project completion?
    Answer. It is important to recognize that some milestones and 
obligations would have been missed regardless of the budgetary approach 
and the level of funding that was chosen. This is primarily the result 
of the relevant agreements having been negotiated years ago with 
incomplete knowledge by any of the parties of the technical complexity 
and magnitude of costs that would be involved in attempting to meet the 
requirements. Moreover, the cleanup program continues to be impacted by 
various safety, contract administration, project management, 
regulatory, legal, technical, economic, and other significant 
challenges. Consequently, isolating funding as the only issue placing 
some of the Department's cleanup milestones in jeopardy given the other 
confounding factors would be inaccurate and misleading.
    When a milestone is missed, whether a fine or penalty is imposed is 
left to the discretion of the Department's regulators. Once imposed, 
who pays a fine or penalty depends on whose actions are responsible for 
missing the milestone. In the past, some fines for missed milestones 
have been paid by the Department, others by contractors. There is no 
separate appropriation for fines and penalties. Therefore, fines and 
penalties paid by the Department come out of cleanup budgets.
    Of the seven Los Alamos National Lab compliance milestones 
scheduled for completion in fiscal year 2009, EM anticipates that three 
are at-risk based on the program's expected performance through fiscal 
year 2008. Since none of these milestones are on critical path to 
project completion, their delay will not result in an extension to the 
project completion date.

                     RENEGOTIATE LANL CONSENT ORDER

    Question. A recent newspaper story reported that Ron Curry of the 
New Mexico Environmental Department believed that Department of Energy 
actions seem to indicate that the Department wants to renegotiate and 
weaken the terms of the clean up agreement between the Department and 
the State. Is there any truth to this statement?
    Answer. No. The Department does not intend to renegotiate or weaken 
the terms of the 2005 Order on Consent. Rather, we have proposed, 
within the existing structure of the Consent Order, priorities with a 
goal of arriving at mutually agreeable opportunities to complete 
cleanup.

                      MISSED MILESTONES NATIONWIDE

    Question. It is my understanding that this budget puts at risk 
three milestones at Los Alamos for fiscal year 2009. How many 
milestones nationwide do you estimate will be missed under this budget 
and how much funding will it take for Congress to add to recover these 
milestones?
    Answer. It is important to recognize that some milestones and 
obligations would have been missed regardless of the budgetary approach 
and the level of funding that was chosen. This is primarily the result 
of the relevant agreements having been negotiated years ago with 
incomplete knowledge by any of the parties of the technical complexity 
and magnitude of costs that would be involved in attempting to meet the 
requirements. Moreover, the cleanup program continues to be impacted by 
various safety, contract administration, project management, 
regulatory, legal, technical, economic, and other significant 
challenges. Consequently, isolating funding as the only issue placing 
some of the Department's cleanup milestones in jeopardy given the other 
confounding factors would be inaccurate and misleading. Of the 
approximately 120 compliance milestones scheduled for completion in 
fiscal year 2009, EM anticipates that 32 are at risk based on the 
expected progress through fiscal year 2008.

                                  WIPP

    Question. Today, the Waste Isolation Pilot Plant is operating at 
full capacity, processing an average of 26 waste shipments per week. 
This throughput is helping to ensure that sites such as Idaho National 
Laboratory and Los Alamos National Laboratory meet State-mandated 
milestones for the removal of TRU waste. Your fiscal year 2009 budget 
proposes $211.5 million for WIPP, a 10 percent decrease from the fiscal 
year 2008 level. This cut will reduce the rate of waste shipments to 
WIPP. Slowing waste transfers to WIPP means that the material will 
remain where it was created and delivery milestones will be missed. Mr. 
Rispoli, why did you propose this reduced funding level? How many 
State-mandated milestones will be missed? Will there be impacts on 
storage facilities at Los Alamos and Idaho National Laboratories?
    Answer. The EM fiscal year 2009 request reflects the Department's 
priorities to focus on risk reduction while maximizing regulatory 
compliance. As noted in the budget request, the proposed fiscal year 
2009 funding would allow WIPP to support a disposal capability of 26 
waste shipments per week: 21 shipments per week of contact-handle 
transuranic waste and 5 shipments per week of remote-handled 
transuranic waste. We do not currently anticipate missing any State-
mandated milestones in fiscal year 2009 at any of our sites based on 
the WIPP program's expected performance through fiscal year 2008. There 
will be no adverse compliance impacts at the Idaho National Laboratory 
because the Department is ahead of schedule in meeting the Idaho 
Settlement Agreement milestones and the Site Treatment Plan targets for 
processing and shipping transuranic (TRU) waste. At Los Alamos National 
Laboratory, there are no State-mandated milestones specific to 
transuranic waste operations, and no adverse storage conditions are 
expected.

 LOS ALAMOS NATIONAL LABORATORY--NATIONAL ACADEMY STUDY ON GROUNDWATER 
                               PROTECTION

    Question. At the request of the Office of Environmental Management 
the National Academy of Sciences initiated a study of groundwater 
protections activities at Los Alamos National Laboratory, which was 
published last year. (``Plans and Practices for Groundwater Protection 
and the Los Alamos National Laboratory.'') Their recommendations 
include: completing the characterization of disposal sites; performing 
additional modeling to understand potential pathways between watersheds 
and adding monitoring locations in the southern area of the site (and 
near the San Ildefonso Pueblo lands). Mr. Rispoli, has any decision 
been taken to act upon these recommendations? What is the status of 
these efforts? Has money been requested in the fiscal year 2009 budget 
to support this work?
    Answer. Yes, the EM program has developed an implementation plan 
for the 17 recommendations in the National Academy of Sciences study. 
Of the 17 recommendations, 13 describe work that has already been done 
or is ongoing. Funding for these activities has been requested in the 
fiscal year 2009 budget.

                         SCIENCE AND TECHNOLOGY

    Question. In the ``Science and Technology Needs for DOE Site 
Cleanup'' workshop held last year, it was mentioned several times that 
current EM cleanup contracts actually serve as a barrier to new 
technology deployment. What is being done within EM to incentivize 
contractors to deploy new technologies to improve upon the efficiency 
and effectiveness of future cleanup contracts?
    Answer. The Office of Environmental Management is committed to 
further developing and utilizing an array of contract structures that 
will provide for the safe and efficient cleanup of our sites, and where 
appropriate, incentivize our contractors to deploy new and/or 
innovative technologies and approaches. Our major contracts are 
structured to incentivize the successful completion of defined mission 
objectives. As such, our incentives are geared toward rewarding results 
achieved and not the methods by which those results are achieved. The 
result of this approach is that our private sector contractors are 
incentivized to utilize their ingenuity and creativeness, including the 
use of new and/or innovative technologies, as appropriate, in bringing 
forth the best solutions to our cleanup challenges.
    In addition, and on a more specific level, we have recently issued 
guidance for using a new project management tool, the Technology 
Readiness Assessment (TRA). The TRA process, as adapted for 
environmental cleanup, is a tool for understanding, and mitigating, the 
complexity and risks associated with implementing first-of-a-kind 
technologies required for the safe and efficient cleanup of our sites. 
Rigorous application of this tool within the framework of our incentive 
contracts will enable our contractors to substantially reduce the risk 
associated with deploying new and/or innovative technologies.
    Question. If additional funding is not secured to enable Los Alamos 
to meet the milestones prescribed in the Consent Agreement that would 
result in a 2 year delay in the cleanup milestone, will this have a 
measurable impact on nearby populations? What impact will this have on 
the cost of cleanup?
    Answer. The budget request provides funding that makes any 
measurable impact on nearby populations very unlikely. The LANL site is 
extensively monitored, with thousands of environmental samples 
routinely analyzed for measurable contamination that could potentially 
impact nearby populations. These results are reported annually in site 
monitoring reports. While the potential for accidents cannot be 
completely eliminated, the Department believes that these risks are 
also very low. Administrative and engineered controls and operational 
safety protocols all contribute to the continued protection of the 
local populations.
    The Environmental Management program's goal is to meet the terms of 
the consent Agreement and finish cleanup at the earliest possible 
juncture in a cost-efficient manner.
                                 ______
                                 
            Questions Submitted to Hon. Edward F. Sproat III
            Questions Submitted by Senator Pete V. Domenici

       IMPLEMENTATION OF E&W DIRECTION TO CONSOLIDATE SPENT FUEL

    Question. The fiscal year 2008 Consolidated Appropriations Act, 
Public Law 110-161, which contains the Energy and Water Division, 
directed the Department ``to develop a plan to take custody of spent 
fuel currently stored at decommissioned reactor sites.'' This language 
is borne out of frustration over the lack of options being considered 
for addressing out commercial spent fuel options. What is the status of 
this report and can you please explain to me what options you are 
considering?
    Have you reached out to the communities interested in hosting the 
GNEP facilities as the public law directs?
    Answer. The Department is preparing a report that will discuss what 
is required to develop an interim storage facility for the acceptance 
of spent nuclear fuel from decommissioned nuclear reactor sites; we 
expect to release the report this summer. The report will consider 
siting options at an existing Federal site, at one or more existing 
operating reactor sites, or at a competitively-selected interim storage 
site. While the Office of Civilian Radioactive Waste Management (OCRWM) 
has not yet reached out to the communities interested in hosting the 
Global Nuclear Energy Partnership, the report will take into account 
information the Department has acquired through the efforts of the 
Office of Nuclear Energy to reach out to such communities.

                          LICENSE APPLICATION

    Question. You appear to have high confidence that DOE's Yucca 
Mountain license application will be of high quality. However, the 
Department has had numerous problems with quality assurance in the 
past. Please describe what standards you have put in place to ensure 
the application will be of the highest quality and how, during the 
transition from one administration to another, we can be assured the 
standards will be maintained.
    How long do you estimate it will take the NRC to take to review and 
approve the license for Yucca Mountain?
    Answer. The Department has taken several steps to build quality 
into the development of the License Application (LA) and we are proud 
of that work. Specifically, the Department followed a rigorous, 
disciplined process that included development of the LA in four phases, 
final LA completeness and accuracy verification reviews, and 
independent quality control checks and validation. In addition, the 
Office of Quality Assurance conducted oversight activities in parallel 
with LA development. Review and approval of the LA was required by all 
organizations at each of the four phases of development, and senior 
management from the Federal and contractor staffs were fully integrally 
and involved in LA preparation and development.
    Section 114 of the Nuclear Waste Policy Act requires that the 
Nuclear Regulatory Commission (NRC) issue a final decision on 
construction authorization for all or part of a repository within 3 
years of the date of submission of the application, except that the 
Commission may extend the deadline by not more than 12 months if the 
NRC submits to the Secretary and the Congress a written report 
explaining the reason for its failure to meet the deadline. We expect 
that the NRC will meet its mandated statutory time frame.

                       YUCCA MOUNTAIN NEXT STEPS

    Question. Beyond the resources required for DOE to support NRC 
review of its license application, have you identified additional 
activities that should be funded in order to position the Department to 
begin construction of the repository in a timely and efficient manner 
should a Construction Authorization be received from NRC? Have any such 
activities been included in your fiscal year 2009 budget request?
    Answer. Beyond funding to participate in the licensing proceeding, 
the fiscal year 2009 budget request includes funding adequate to 
execute the minimum set of critical activities which are sufficient to 
continue to make forward progress on the program. Activities to be 
funded include continued detailed design for facilities required for 
the receipt of spent nuclear fuel and high-level radioactive waste; 
continued essential interactions with State, local, and tribal 
governments needed to support national transportation planning; 
completion of efforts to finalize the contour mapping needed to 
finalize the layout of the rail line in pursuit of land acquisition and 
completion of a right-of-way application for the Nevada rail line; 
continued design work on the transportation, aging and disposal 
canister system; staffing and training of the OCRWM organization so 
that it has the skills and culture required to design, license, and 
manage the construction and operation of the Yucca Mountain Project; 
and planning for a compliant and well-integrated safeguards and 
security, safety, and emergency management program for the disposal, 
transportation, and management of spent nuclear fuel and high-level 
radioactive waste.
    Question. When the Yucca Mountain Development Act of 2002 
authorized DOE to go ahead and proceed into the licensing process for 
Yucca Mountain, the Department originally planned to submit a license 
application to NRC in 2004. This of course has been delayed. It is my 
understanding that, during the extended period that we have been 
waiting for the now forthcoming license application you have had 
significant and regular pre-application interactions with the NRC. Can 
you comment on what you have learned from these interactions in terms 
of types and extent of questions you might expect from NRC during their 
review of your application?
    How has what you have learned informed your planning in terms of 
the resources that will be required for DOE to be in a position to 
respond to NRC questions in a timely manner?
    Also, given this knowledge, what is your level of confidence that, 
provided you get the resources you believe are required for DOE to be 
responsive to NRC's review (and NRC's funding requirements are 
similarly met), that the review can be completed in the 3 to 4 years 
called for in the Nuclear Waste Policy Act?
    Answer. We believe that the pre-licensing interactions have helped 
the NRC to better understand DOE's approach to demonstrating compliance 
with the applicable regulations. Also, in some instances these 
interactions have led the Department to revise its approaches to better 
meet NRC's expectations. We are not in a position to speculate on the 
type of questions that may result from the NRC's review of the LA.
    The Department's planning relating to the resources that will be 
necessary to support the licensing proceedings has been informed by 
past interactions with the NRC, the Department's experience in 
preparation of the LA, and the Department's experiences in supporting 
regulatory proceedings and/or litigation in connection with major 
Federal projects. Subject to the availability of the requested funding, 
the Department believes that with the submittal of a high quality LA 
and the available technical Federal and contractor staff that the 
Department will be able to respond to NRC requests for additional 
information in a timely manner.
    The Department is confident that, assuming receipt of the requested 
funding, that we will be able to respond to NRC requests for additional 
information in a manner such that NRC will be able to complete their 
Safety Evaluation Report within 18 to 24 months. This will support 
timely issuance by the NRC of a decision regarding construction 
authorization within the 3 to 4 year time frame.
    Question. As you know there is now considerable interest in 
recycling used nuclear fuel. It is my understanding that recycling 
removes many of the radioactive constituents from the used fuel and 
processes them into waste forms having reduced volume as compared to 
what is originally in the used fuel. Can you comment on the ability of 
the Yucca Mountain repository to safely dispose of the waste forms that 
might result from recycling and how this might impact the amount of 
material that could be stored in the Mountain?
    Answer. Until the current law is changed, recycling of spent 
nuclear fuel will have no effect on the amount of waste that can be 
disposed of in Yucca Mountain. This is because the Nuclear Waste Policy 
Act of 1982, as amended, sets a limit of 70,000 metric tons of heavy 
metal (MTHM) based on the original uranium content of the fuel. 
Therefore, regardless of the amount of volume reduction or radionuclide 
transformation that takes place by recycling, only the amount generated 
by the original 70,000 MTHM can be placed in the repository. If the law 
were to be changed to lift that limit, the high-level waste products 
from recycled fuel in amounts greater than 70,000 MTHM could be 
disposed of in Yucca Mountain.
    The Department is in the process of evaluating the benefits of 
recycling spent nuclear fuel; however, it is premature to analyze how 
the various waste forms resulting from recycling might impact the 
amount of material that could be stored in Yucca Mountain. Further 
technical information on the characteristics of the waste form is 
required before such analyses can be performed. Studies prepared for 
the Global Nuclear Energy Partnership have indicated that the recycling 
initiative can potentially produce a waste form with less volume and 
lower heat generation.

                           NEW NUCLEAR PLANTS

    Question. What are the implications of the recent announcements of 
nuclear power plant license submittals with regard to the Yucca 
Mountain license application and the utility contracts?
    Answer. The recent announcements of nuclear power plant license 
application submittals to the NRC will not impact the License 
Application for Yucca Mountain, which is being prepared based upon the 
current statutory limit of 70,000 MTHM. The announcements similarly 
will have no impact on the Department's existing utility spent fuel 
disposal contracts, which were executed in the 1980s.
    Notwithstanding the above, the Nuclear Waste Policy Act of 1982, as 
amended, requires that any applicant seeking a license to construct and 
operate a new nuclear plant must have entered into a contract with the 
Secretary of Energy for disposal services, or that the Secretary 
affirms that such a person be in good faith negotiations with the 
Secretary for such a contract. In view of the announcements of 
applications for new nuclear plants, the Department is considering 
execution of appropriate contracts with interested utilities.

                          SUBCOMMITTEE RECESS

    Senator Dorgan. So we appreciate both of you coming to the 
Senate today and appreciate your testimony. This hearing is 
recessed.
    [Whereupon, at 10:38 a.m., Wednesday, April 9, the 
subcommittee was recessed, to reconvene subject to the call of 
the Chair.]

</pre></body></html>
